BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Lisa M.
Folajtar v. Attorney General of the United States, et al.,
was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
11th day of December, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave. , N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati , Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

David H. Thompson
Counsel of Record
Peter A. Patterson
Steven J. Lindsay
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
Joshua Prince
CIVIL RIGHTS DEFENSE FIRM, P.C.
646 Lenape Road
Bechtelsville, PA 19505
(888) 202-9297
Adam Kraut
Joseph G. S. Greenlee
FIREARMS POLICY COALITION
1215 K Street, 17th Floor
Sacramento, CA 95814
(916) 378-5785
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 11, 2020.

UYLALu

Donna J. Wolf
Becker Gallagher Legal Publishin , Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~ bu_ I ( , dO dO

Jzsi,,, ij,

Notary Public

JJ~

[seal]

JOHN iJ GALLAGHER
Notary Puolic, Sl1l1; of Ohio
My Commission Expires
re'iruary 14, 2023

